HHS/OIG, Audit - "Review of High-Dollar Payments for Arkansas Medicare
Part B Claims Processed by Pinnacle Business Solutions, Inc. for the Period
January 1, 2003, Through December 31, 2003," (A-06-07-00091)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments for Arkansas
Medicare Part B Claims Processed by Pinnacle Business Solutions, Inc. for the
Period January 1, 2003, Through December 31, 2003," (A-06-07-00091)
December 7, 2007
Complete
Text of Report is available in PDF format (104 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether
Pinnacle Business Solutions, Incs high-dollar Medicare payments to
Arkansas Part B providers were appropriate.  All 23 of the high-dollar payments,
totaling $304,600, were appropriate.  As a result, this report contains no
recommendations.